<html>
<title> - FAILURES IN MANAGING FEDERAL REAL PROPERTY: BILLIONS IN LOSSES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
     FAILURES IN MANAGING FEDERAL REAL PROPERTY: BILLIONS IN LOSSES

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT OPERATIONS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED THIRTEETH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 27, 2013

                               __________

                            Serial No. 113-7

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform



                  U.S. GOVERNMENT PRINTING OFFICE
79-964                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0c6b7c634c6f797f786469607c226f636122">[email&#160;protected]</a>  

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              MARK POCAN, Wisconsin
DOC HASTINGS, Washington             TAMMY DUCKWORTH, Illinois
CYNTHIA M. LUMMIS, Wyoming           DANNY K. DAVIS, Illinois
ROB WOODALL, Georgia                 PETER WELCH, Vermont
THOMAS MASSIE, Kentucky              TONY CARDENAS, California
DOUG COLLINS, Georgia                STEVEN A. HORSFORD, Nevada
MARK MEADOWS, North Carolina         MICHELLE LUJAN GRISHAM, New Mexico
KERRY L. BENTIVOLIO, Michigan        VACANCY
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

                 Subcommittee on Government Operations

                    JOHN L. MICA, Florida, Chairman
MICHAEL R. TURNER, Ohio              GERALD E. CONNOLLY, Ranking 
JUSTIN AMASH, Michigan                   Minority Member
THOMAS MASSIE, Kentucky              JIM COOPER, Tennessee
MARK MEADOWS, North Carolina         MARK POCAN, Wisconsin


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 27, 2013................................     1

                               WITNESSES

Dorothy Robyn, Ph.D., Commissioner, Public Buildings Service, 
  U.S. General Services Administration
    Oral Statement...............................................     6
    Written Statement............................................     9
Mr. David Wise, Director, Physical Infrastructure Team, U.S. 
  Government Accountability Office
    Oral Statement...............................................    16
    Written Statement............................................    18
Mr. Leonard Gilroy, Director of Government Reform, Reason 
  Foundation
    Oral Statement...............................................    33
    Written Statement............................................    35

                                APPENDIX

Statement of the National Law Center on Homelessness & Poverty...    55
The Honorable John Mica, a Member of Congress from the State of 
  Florida, Opening Statement.....................................    61


     FAILURES IN MANAGING FEDERAL REAL PROPERTY: BILLIONS IN LOSSES

                              ----------                              


                      Wednesday, February 27, 2013

                   House of Representatives
             Subcommittee on Government Operations,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 2154, Rayburn House Office Building, Hon. John Mica 
[chairman of the subcommittee] presiding.
    Present: Representatives Mica, Connolly, Cooper and Pocan.
    Also Present: Representative Norton.
    Staff Present: Robert Borden, Majority General Counsel; 
Molly Boyl, Majority Parliamentarian; Caitlin Carroll, Majority 
Deputy Press Secretary; Gwen D Luzansky, Majority Research 
Analyst; Adam P. Fromm, Majority Director of Member Services 
and Committee Operations; Linda Good, Majority Chief Clerk; 
Michael R. Kiko, Majority Staff Assistant; Mark D. Marin, 
Majority Director of Oversight; Scott Schmidt, Majority Deputy 
Director of Digital Strategy; Peter Warren, Majority 
Legislative Policy Director; Jaron Bourke, Minority Director of 
Administration; Beverly Britton Fraser, Minority Counsel; and 
Devon Hill, Minority Research Assistant.
    Mr. Mica. Good afternoon. I would like to call the 
Subcommittee on Government Operations to order. Pleased to have 
everyone join us in this subcommittee hearing of the Government 
Reform and Oversight Committee.
    This is our first Government Operations Subcommittee 
hearing. Delighted to have the opportunity to chair. This is my 
third subcommittee to chair in Government Reform and Oversight, 
formerly Government Operations Committee. I had the honor of 
serving as chairman of the Civil Service Subcommittee for four 
years, Criminal Justice and Drug Policy for two years, and now 
have an opportunity during this period.
    I think our most important responsibility during this 
period of time in the next couple of years, particularly when 
our Nation faces some challenges with finance, with financing 
government. Tomorrow we face sequestration and fiscal crisis 
that we can be in a position to examine some of the areas in 
which we can save taxpayer dollars, do a better job, and also 
hopefully help towards that bottom line when we are approaching 
a $17 trillion national deficit.
    So I am pleased to call the subcommittee hearing to order 
today. Mr. Connolly, hopefully, will be here in a few minutes. 
I want to thank the staff on both sides of the aisle for 
working in a cooperative, bipartisan manner to launch our 
effort, and I look forward to continuing that effort. Exercise 
uncovering government waste, abuse, and fraud is not a partisan 
issue, it is something that we have a solemn responsibility to 
pursue, particularly under the charter of this important 
committee.
    With that being said, too, I try not to offer any 
surprises. I told Mr. Connolly, and I will recite publicly, we 
will do our first field hearing is tentatively scheduled next 
Friday in Miami, Florida. It will be at Miami Dade Community 
College. It will also be on the subject that we will cover some 
of today here, and that is the subject of failures in managing 
federal real property, billions in losses is the title of 
today's hearing. But we will continue that with our hearing.
    I come here today also having chaired the transportation 
committee. Just for the record, began work in transportation we 
have a very limited focus over some of GSA s federal property 
activities and we began some hearings, as you may recall, both 
looking at GSA operations, the guy in the hot tub who everyone 
remembers waving at us while he was wasting extreme amounts of 
taxpayer money on expensive conferences.
    But we also uncovered federal assets that were not 
utilized, including looking in the Washington area at the Old 
Post Office, which I am pleased we have a plan for; it is 
moving forward. Instead of losing $10 million a year, it has 
the potential for income for the taxpayers. Instead of being a 
pit where folks don't work and we pour money into it, as many 
as 1,000 workers will work there, possibly as much as a 400-
room hotel.
    So we can take these assets that are costing taxpayers 
money and convert them into performing assets and reduce, 
again, our deficit spending.
    We also looked at the Cotton Building, which is between the 
interstate and the mall, a huge property, smaller building, but 
it sat idle. The power station, two acres right behind, I 
believe it is, the Ritz-Carlton in Georgetown, a vacant power 
plant on very valuable property sitting idle. And our hearing 
next week in Miami is a continuation of the hearing, because we 
did one in an empty federal courthouse, which has been vacant, 
I believe, since 2007.
    After we did the hearing we found out that that federal 
property sitting idle across the street from the community 
college, in fact, the community college had been seeking for 
some six years access to either rent or utilize that space; 
they needed additional classrooms, particularly in a judicial 
setting, for some of their programs, and it is exactly across 
the street. So next Friday one of our key witnesses will be the 
president of that college, and he will detail some of his 
efforts to acquire over many years an idle federal asset. So we 
are trying to pick up from where we have been and where we are 
going, we intend to go.
    Today s hearing will focus primarily--I am stalling for a 
minute, as you can tell, trying to give Mr. Connolly time to 
get here. But in today s hearing we are going to focus on high 
risk property issues that have been identified by GAO as high-
risk and, unfortunately, the category of high-risk activities 
of the Federal Government was submitted again, I believe, last 
month and again, and I guess this is the tenth anniversary of 
appearing high on the high-risk category list, is the issue of 
real federal property and problems with management losses and 
risk involved there.
    So this is the tenth anniversary appearing on that list, 
and what we thought we would do is start out with reviewing 
some of the problems that have been identified, and I think the 
GAO has done a good job of identifying some of the problem 
areas. And we will review some cases to expand what we did in 
the capital area. We looked at a couple properties in the last 
30 days since we acquired this responsibility, but we wanted to 
look in the neighborhood first, then we will look across the 
Country, and we looked particularly at two properties I will 
talk about in a few minutes.
    But, again, I am pleased to have Mr. Connolly as a ranking 
member and look forward to working with him. We have had a good 
starting discussion and, again, I appreciate the cooperation of 
his staff and the ranking member personally in helping us 
launch this.
    So as we begin this hearing today, again, Mr. Connolly and 
staff, I have to reiterate our very basic, fundamental 
principles of our activity, and it is, first, that Americans 
have a right to know how their money in Washington is taken 
from them and how it is spent, and making certain that it is 
well spent; and, secondly, that Americans deserve an efficient, 
effective government that works for them. And I know Mr. 
Connolly joins me in trying to uphold those principles.
    Our duty on this committee, the Government Reform and 
Oversight Committee and this specific subcommittee, is to 
protect these rights of the citizens. They are out working 
hard, sending their hard-earned tax dollars to Washington. They 
send us here to represent them and that is what we need to do. 
So we have to hold government accountable for the taxpayers and 
we also have to find out what is going on, make that public. 
The public has a right to know what the government is doing and 
what they get from their hard-earned dollars coming here. We 
will work tirelessly in partnership with our citizen watchdogs 
to deliver the facts to the American people and bring them 
genuine reform to the bureaucracy.
    Now, just having this hearing or just talking about some of 
the problems gets us absolutely nowhere, so it is my hope this 
can be an action-oriented subcommittee. Work with Mr. Connolly, 
again, in a bipartisan effort to find solutions, either 
legislative or working sometimes with agencies to get things 
moving.
    And then let me just cover for a moment, again, the 
continuation of the work I started before and we are entering 
into. We picked up here in the Washington area. And I am not 
just picking on the Nation's capital, Virginia, or Maryland; we 
will go to Florida. We can go anywhere in the United States and 
see these abuses. But real property management that the Federal 
Government has responsibility over is 77,000 buildings that 
have been identified as vacant or underutilized. Fourteen 
thousand of these buildings and structures have been declared 
excess property and the Federal Government spends $1.67 billion 
annually to operate and maintain vacant or underutilized 
properties.
    Here in our backyard, again, we looked at two examples and 
we have some illustrations here. Agricultural Research Center. 
We went out to that facility in Beltsville, Maryland. These 
photographs on the side were taken by our staff. If you look, 
the Federal Drug Administration Building is the first building; 
it looks sort of barnish. That has its title on the door. Next 
to it you only see building 262 and 263. There is a line of 
these office buildings totally vacant, vines growing over them. 
You see some of the interior.
    This is part of a nearly 7,000 acre Department of 
Agricultural Research Services Center, covers nearly 7,000 
acres. It is just an enormous swath of land. In fact, it is 
bigger than the city territory in my State of Key West. That is 
how big it is. And some of the most valuable real estate in the 
United States of America; it is part of the capital district. 
So there are over 500 buildings here, and over 200 of them are 
vacant or underutilized. In all fairness, most of, well, I 
would say more than half, probably 150, are small, outdated, 
some of them even shed buildings, but there are 40 buildings 
that are of significant size. You see these here sitting there 
idle.
    The interesting thing was I asked when they had seen a 
member of Congress, and I think it is in Mr. Hoyer s district 
or one of the Maryland members, and they said they had seen him 
and maybe a senator, but they had never seen another member of 
Congress, at least in recent memory, come there. So my concern 
is this asset, which is incredibly valuable, this valuable 
piece of real estate that could be better utilized.
    I am not trying to do away with the Agricultural Research 
Services, but a lot of this facility was built in the 1930s and 
their mission has changed. But we have no plan, we have no 
plan. We have no one looking at coming forward with utilization 
or maximizing these assets.
    Then one of the other things we found, well, actually, the 
GAO found in this high-risk report is some of the reports, we 
keep an inventory of reports of property, and they found the 
data and data quality of property was inconsistent and 
inaccurate. And they don't collect the data. It is garbage in, 
garbage out.
    Here is an illustration of two properties on the list of 
Federal Real Property Profile listed in excellent condition. 
You see the report there? And you can see where, one, the roof 
is caved in and the other one is decrepit. In a recent GAO 
audit, they found inconsistencies and inaccuracies of 23 of 26 
locations visited contained in the Federal Real Property 
Profile.
    So we are only touching, scratching the surface of some of 
the problems that we have. We are here to uncover that, to look 
at how we can do a better job in alleviating some of the 
problems in dealing with the either excess or current federal 
property, and then the data and information that we have about 
them. Don't have time to go into visiting a million square feet 
in a property. I don't know if that is in your district, Mr. 
Connolly, but the utilization of that space, prime real estate 
in the capital region that someone should be looking at for its 
maximum and best use.
    With those comments, and I will add a lot more, I am just 
getting started. Thank you for being late, because it gave me 
more time to mouth off here. But let me just say I appreciate--
I have worked with Mr. Connolly before on projects important to 
his district and the region. I was delighted to see that he is 
the ranking member. We have had great discussions and 
preliminary work in launching our effort, and I welcome him and 
pleased to recognize him at this time.
    Mr. Connolly. Thank you, Mr. Chairman. I apologize for 
being here; I had three luncheon meetings all over the Capitol 
compound, and I did not eat at all three, so forgive me for 
being a little bit late. But I do want to thank you so much for 
holding this hearing, and I absolutely pledge to work with you 
on this subject; I think it is a very important subject.
    When I was chairman of Fairfax County, this was a very 
personal subject to me because of the disposition of the Lorton 
Prison site, federal prison. Going back to very early 1900s, 
historic site; the Suffragettes were actually imprisoned there 
for protesting the lack of vote for women, and it was at one 
point seen as a model sort of penal reform institution.
    It evolved into something quite ugly. It was about slightly 
under 3,000 acres and we were able to purchase it from the 
Federal Government as excess property with certain pledges 
about what we would do with it. But when we got the property, 
we had over 300 buildings on this one property site, to your 
point, Mr. Chairman, some of which looked like that, some of 
which were historic buildings that we had to preserve, we had 
agreed to preserve, many of which had asbestos that had to be 
abated. And, of course, if a building ends up looking like 
that, Mr. Chairman, the only choice is to bulldoze it; it is 
just too expensive to try to retrofit it and reconstruct it.
    So allowing buildings to get to that kind of decrepitude 
has a cost associated with it, and there is a public safety 
issue at some point in terms of this kind of condition of 
buildings. The maintenance alone, it is estimated, on buildings 
that we no longer need or use is over $1.7 billion a year, 
according to the GAO.
    There are lots of costs in all of this, and what I would 
like to work with you on, Mr. Chairman, is not only the issue 
of disposition, but also the relationship to local governments. 
I know you have faced this too. We want to make sure that if 
there is a compelling use of these properties at the local 
level, that they get sort of first right of refusal, because it 
is in their midst and we, as the Federal Government, have a 
responsibility in partnership to that community.
    So sometimes the highest, best use of a property from a 
pure dollars and cents point of view may not always be in sync 
with what the local government's priorities may be, but I would 
never want to just run roughshod over the local governments. I 
know you and I talked about an example back home in Florida, 
where we would want to look at the productive use of a 
particular property for an educational institution.
    So my own experience gives me a lot of sensitivity to what 
you are trying to do here, Mr. Chairman, and I look forward to 
working with you and collaborating with you as we work through 
these issues, particularly in light of sequestration and the 
sort of fiscal cloud that now hangs over all of us. It behooves 
all of us to look for every opportunity to try to make sure 
that the assets we do manage we are managing efficiently, and 
those that we no longer need and know we no longer need, 
instead of always mothballing them, maybe we need to dispose of 
them in a productive way that serves the taxpayer and the local 
community well.
    With that, I look forward to the hearing and the testimony 
this afternoon. Thank you, Mr. Chairman.
    Mr. Mica. Well, thank you so much. Again, we will be 
focusing today on the high-risk series, GAO s publication and, 
in particular, we are going to be looking at federal real 
property management, and we are pleased that we have three 
witnesses. We have members, some in a conference and some at 
other activities, but all members, with your permission, may 
have seven days to submit opening statements for the record. 
Without objection?
    Mr. Connolly. Without objection.
    Mr. Mica. So ordered.
    Mr. Connolly. Mr. Chairman, I am sorry, I was derelict. I 
would ask, without objection, that our colleague, Eleanor 
Holmes Norton, be allowed to participate in this hearing when 
she arrives.
    Mr. Mica. Without objection. She would be more than 
welcome.
    Mr. Connolly. I would further ask, Mr. Chairman, consent to 
enter into the record a statement of the National Law Center on 
Homeless and Poverty on this subject.
    Mr. Mica. Without objection, so ordered.
    Mr. Connolly. I thank the chairman.
    Mr. Mica. All statements, any statements, and lengthy 
statements, we try to limit you to five minutes, our witnesses, 
but our panel can submit lengthy statements.
    I don't see Ed here, but it is customary, I think, in the 
past, to swear our witnesses in. So if you would stand and 
raise your right hand. Do you solemnly swear that the testimony 
you are about to give to this panel of Congress is the whole 
truth and nothing but the truth?
    [Witnesses respond in the affirmative.]
    Mr. Mica. Let the record reflect that the witnesses 
answered in the affirmative. Welcome. We are pleased to have 
three top-notch witnesses, and we can begin by a quick 
introduction. Dorothy Robyn is the Commissioner of Public 
Buildings Service at General Services Administration; Mr. David 
Wise is the Director of Physical Infrastructure Team at the 
U.S. Government Accountability Office; and we have Mr. Leonard 
Gilroy. He is the Director of Government Reform at the Reason 
Foundation. So we have three excellent witnesses, and what we 
are going to do, we will give you five minutes to sort of 
launch into it.
    Now, I might say that you will probably hear a bell ringing 
in a few minutes, and that will be a 15 minute warning. I am 
sure we can get through the three of you. Then we may have to 
come back and ask questions. It will be about a 30, probably a 
45-minute delay for us to go and vote and come back, from what 
I understand.
    So, with that, let me recognize the Commissioner of Public 
Buildings, Dorothy Robyn, and welcome her. You are recognized.

               STATEMENT OF DOROTHY ROBYN, PH.D.

    Ms. Robyn. Good morning, Chairman Mica. Thank you and 
Ranking Member Connolly. It is an honor to be here with you 
this morning.
    Under new leadership, GSA has refocused on its mission of 
delivering the best value in real estate, acquisition, and 
technology service to government and the American people. In 
the real estate area, we face three key challenges: one, an 
aging portfolio of buildings; second, limited capital for 
reinvestment in those buildings; and, third, because of the 
first two issues, an over-reliance on leased space, as opposed 
to government-owned space.
    To meet these challenges, GSA is focusing its effort in 
four key areas: first, we are rightsizing our portfolio. We are 
working with federal agencies to improve their utilization of 
space and thereby reduce their space requirement. We do this 
by, among other things, helping agencies adopt newer, more 
efficient workspace arrangements and undertake proper planning 
for mobile work. One indication of our success is our fiscal 
year 2013 prospectus-level leases, which were reduced in size 
by 300,000 square feet, or about 10 percent.
    Second, we are disposing of excess GSA property. Mr. 
Chairman, I know this has been a particular interest of yours, 
and I appreciate the visibility you have given the issue. You 
will be pleased to know that the online auction to dispose of 
the Georgetown heating plant has been underway since late 
January. Although the auction was scheduled to end last week, 
we have kept it going because of continued bidding activity. As 
of a half hour ago, the high bid is $16.1 million.
    With our government-wide disposal authority, we have also 
been working to help other agencies dispose of unneeded assets. 
In fiscal year 2012, we disposed of 114 federal properties; of 
those, 79 were sales that yielded about close to $38 million in 
proceeds.
    However, as GAO has noted, there are a number of 
longstanding challenges to getting agencies to better utilize 
their current inventory and dispose of unneeded assets. The key 
ones are the up-front cost of property disposal, legal 
requirements prior to disposal, and stakeholder resistance. As 
you know, the Administration has proposed a civilian BRAC 
process that would address these challenges. I have been 
involved in the BRAC process since 1993, off and on; most 
recently during a three-year tenure at the Defense Department. 
It is a painful, but critically important, mechanism and we 
need it on the civilian side.
    I very much appreciate the effort by you and Congressman 
Denham to get a civilian BRAC bill. I would like to work with 
you to get a bill that goes even farther.
    Third, GSA is using the authorities Congress has given us 
to leverage private capital to deliver better and more 
efficient space to our federal customers. In early December we 
issued an RFI, request for information, seeking private sector 
input on exchanging the FBI's J. Edgar Hoover Building, an 
outdated, but valuable, property on Pennsylvania Avenue, for 
the construction of a new, state-of-the-art headquarters 
somewhere in the national capital region.
    Mr. Connolly. Preferably in Northern Virginia.
    Ms. Robyn. We are following a similar approach to 
capitalizing on our assets in Federal Triangle South, a 22-
acre, five building area near the national mall that we think 
can be redeveloped so as to better accommodate federal agency 
needs and, at the same time, support the District s vision for 
vibrant mixed use.
    Finally, we are working with OMB and the Federal Real 
Property Council to improve the Federal government's inventory 
of real property, the Federal Real Property Profile, or FRPP. 
Although I would defend the quality of the data in the FRPP on 
our own property, on GSA-owned property, I recognize the 
broader limitations of the inventory. In line with GAO's 
recommendations, we are working with the Federal Real Property 
Council to get greater consistency agency-to-agency, to clarify 
the data dictionary with additional detail that will help 
agencies better understand the data elements, and to tighten 
the requirements by removing optional data fields.
    In closing, let me comment on a statement in the report by 
the Reason Foundation that Mr. Gilroy will be discussing today. 
It is a good report, but the report says at one point that 
managing real property can be considered a mundane chore for 
the public servant, lacking the headline-grabbing issues of 
health care, energy policy, or national defense.
    I want to assure the Reason Foundation and you, Mr. 
Chairman, and you, Mr. Connolly, that GSA in no way finds the 
management of real property to be either mundane or a chore. It 
is why GSA was created. It is a mission we carry out with great 
passion and I would say with considerable skill.
    I look forward to working with you to enable us to perform 
that mission better. Thank you.
    [Prepared statement of Ms. Robyn follows:]

    [GRAPHIC] [TIFF OMITTED] T9964.001
    
    [GRAPHIC] [TIFF OMITTED] T9964.002
    
    [GRAPHIC] [TIFF OMITTED] T9964.003
    
    [GRAPHIC] [TIFF OMITTED] T9964.004
    
    [GRAPHIC] [TIFF OMITTED] T9964.005
    
    [GRAPHIC] [TIFF OMITTED] T9964.006
    
    [GRAPHIC] [TIFF OMITTED] T9964.007
    
    Mr. Mica. Thank you for your testimony. And we will hold 
questions.
    I will recognize Mr. Wise next. He is Director of the 
Physical Infrastructure Team at GAO. Welcome, and you are 
recognized, sir.

                    STATEMENT OF DAVID WISE

    Mr. Wise. Thank you, Mr. Chairman. Ranking Member Connolly 
and members of the subcommittee, I am really pleased to be here 
today to discuss federal real property management. The Federal 
government's real property portfolio includes about 400,000 
owned or leased buildings located throughout the Country.
    In 2004, the President issued Executive Order 13327 
establishing the Federal Real Property Council. The Executive 
order required the FRPC to work with the GSA to establish and 
maintain a single, comprehensive database describing the 
nature, use, and extent of all federal real property. The FRPC 
created the Federal Real Property Profile to meet this 
requirement and began data collection in 2005. As we have 
reported, despite the implementation of the Executive order, 
data problems have continued and agencies face challenges 
managing their real property.
    My statement today summarizes our recent high-risk update 
as it pertains to federal real property management and 
discusses challenges associated with excess and underutilized 
property, drawing on our June 2012 report.
    The Federal Government continues to face longstanding 
problems managing its real property, including an over-reliance 
on costly leasing and issues with excess and underutilized 
property. The previous and current Administrations have given 
high level attention to real property management. For example, 
in May 2011, the Administration proposed legislation referred 
to as the Civilian Property Realignment Act to establish a 
framework for consolidating and disposing of civilian real 
property. However, neither CPRA nor other real property reform 
legislation introduced in the last Congress has been enacted.
    The Federal Government's continued reliance on costly 
leasing has been an ongoing problem. The Government leases 
spaces from private landlords in the same real estate market 
where it owns underutilized property. In some cases federal 
agencies in the same market could consolidate into other 
government-owned properties. However, agencies do not have a 
strong understanding of real property held by other agencies 
and may lack the authority or expertise to lease their own 
underutilized property to other federal agencies. We have 
ongoing work assessing GSA s high cost leases that we plan to 
report on later this year.
    In our June 2012 review, we found that FRPP data did not 
accurately describe the properties at 23 of 26 sites that we 
visited, often overstating the condition and annual operating 
costs. Our work focused on reviewing selected agency-reported 
FRPP data elements, including utilization, condition, annual 
operating costs, and value. We found that FRPC had also not 
followed sound data collection practices.
    For example, the FRPC has not ensured that agencies data 
elements are consistently defined and reported, thus limiting 
the usefulness of FRPP data as a decision-making tool. On our 
onsite visits, we found that agencies often did not report 
building utilization consistently or accurately. Also, as seen 
on the posterboards, some properties we visited were listed in 
FRPP as being in excellent condition, even though they were 
clearly not.
    As for operating costs, we found data inconsistencies and 
inaccuracies at most sites. In some cases officials apportioned 
building operating costs according to square footage of an 
overall site. Regarding value, agencies often reported 
replacement costs higher than the property's actual worth 
because they did not take into account market or asset 
conditions. Additionally, according to agency officials, many 
excess properties do not have the potential for generating 
revenue for the Federal Government. Indeed, we saw more than 80 
buildings on our site visits that agencies plan to demolish 
when they have the resources to do so.
    Federal agencies reviewed have taken some actions to better 
manage their property, including consolidating offices and 
reducing employee workspace. However, they still face 
longstanding challenges. For example, agency disposal costs can 
outweigh the financial benefits in the near term. Legal 
requirements, such as those related to conveyance, preserving 
historical properties, and conducting environmental remediation 
can make the property disposal process lengthy and costly. 
Finally, stakeholder interests can conflict with property 
disposal or reuse plans.
    While multiple administrations have committed to improving 
real property management, their efforts have not yet fully 
addressed the underlying challenges that we have identified. In 
the June report, we recommended that OMB, in consultation with 
FRPC, develop a national strategy for managing federal excess 
and underutilized real property. OMB did not state whether it 
agreed or disagreed with our recommendation.
    In that report we also recommended that GSA and FRPC take 
action to improve the FRPP. GSA has taken action to begin 
implementing our recommendation related to FRPP. We will 
continue to monitor these agencies efforts to implement our 
recommendations, which we believe are critical to addressing 
the challenges that have kept federal real property management 
on our high-risk list.
    Chairman Mica, Ranking Member Connolly, and members of the 
subcommittee, this concludes my prepared statement. I would be 
happy to answer any questions you may have.
    [Prepared statement of Mr. Wise follows:]

    [GRAPHIC] [TIFF OMITTED] T9964.008
    
    [GRAPHIC] [TIFF OMITTED] T9964.009
    
    [GRAPHIC] [TIFF OMITTED] T9964.010
    
    [GRAPHIC] [TIFF OMITTED] T9964.011
    
    [GRAPHIC] [TIFF OMITTED] T9964.012
    
    [GRAPHIC] [TIFF OMITTED] T9964.013
    
    [GRAPHIC] [TIFF OMITTED] T9964.014
    
    [GRAPHIC] [TIFF OMITTED] T9964.015
    
    [GRAPHIC] [TIFF OMITTED] T9964.016
    
    [GRAPHIC] [TIFF OMITTED] T9964.017
    
    [GRAPHIC] [TIFF OMITTED] T9964.018
    
    [GRAPHIC] [TIFF OMITTED] T9964.019
    
    [GRAPHIC] [TIFF OMITTED] T9964.020
    
    [GRAPHIC] [TIFF OMITTED] T9964.021
    
    [GRAPHIC] [TIFF OMITTED] T9964.022
    
    Mr. Mica. Thank you again, and we will hold questions.
    Let s go to Mr. Leonard Gilroy. He is Director of 
Government Reform at the Reason Foundation. Welcome, and you 
are recognized.

                  STATEMENT OF LEONARD GILROY

    Mr. Gilroy. Thank you, Chairman Mica, Ranking Member 
Connolly, members of the subcommittee. I am honored for the 
invitation to speak today. For the record, I am Leonard Gilroy, 
Director of Government Reform at the Reason Foundation. We are 
a nonprofit think tank that researches market-based policy and 
best practices for efficient and effective government.
    Managing real property can be a major challenge in 
government, with agencies often lacking their own asset 
monitoring and tracking systems, leading to a lack of 
standardization and interoperability. Without the ability to 
know what government agencies own, it becomes very difficult to 
manage those assets in the most cost-effective and efficient 
ways.
    In my written testimony I include a link to our 2010 Reason 
Foundation report, where we outline the case for a more robust 
federal real property inventory, a central geographic 
information systems-based record of government-owned land and 
assets to serve as a tool for improved asset management and 
public accountability.
    Real property inventories offer a range of benefits. They 
allow public officials to assess whether public property is 
being used and maintained in the most efficient manner 
possible. Inventories can also help assess the potential value 
of divesting underutilized or unnecessary land or assets, which 
can generate revenues and lower maintenance and operation costs 
over the long term. Selling or leasing assets to the private 
sector can expand the tax base and encourage economic growth. 
And inventories can potentially help lower lease and 
maintenance costs through space consolidation and more 
efficient utilization.
    Unfortunately, the absence of a robust real property 
inventory presents a major challenge for right-sizing the 
federal property portfolio and causes higher than necessary 
operating costs and maintenance responsibilities.
    The GAO has long noted deficiencies in federal real 
property management and, as you mentioned, has designated real 
property management as a high-risk activity since 2003, in part 
due to the unreliability and limited usefulness of current 
data.
    More recently, a June 2012 GAO report found that the FRPC 
has not followed sound data collection practices in designing 
and maintaining the Federal Real Property Profile database, 
suggesting that the database may not be an adequate or useful 
tool for describing excess and underutilized properties 
consistently and accurately for measuring performance and for 
decision-making in general.
    The Federal Government should take note of recent proactive 
steps at the State level to develop real property inventories. 
For example, in 2005, former Georgia Governor Sonny Perdue 
issued an executive order creating the State's first State 
Property Officer and restructuring the State Property 
Commission to bring overlapping, multi-agency management of 
real estate into one portfolio, with a central manager. 
Governor Perdue also ordered the State's first comprehensive, 
enterprise-wide asset inventory. As a result, the State has 
sold off over $15 million worth of surplus assets, renegotiated 
leases at lower rates, and adopted uniform construction 
guidelines.
    Virginia also enacted a law in 2011 requiring the State's 
Department of General Services to develop a comprehensive real 
property inventory and an online surplus real property 
database. Similarly, Oklahoma enacted a law in 2011 requiring 
the State's Director of Central Services to publish a report 
detailing State-owned properties, including a list of the 5 
percent of the most underutilized properties, the value of 
those properties, and the potential for purchase if sold. A 
separate bill passed in 2012 in Oklahoma would direct the 
proceeds from State asset sales to a new fund dedicated to the 
maintenance and repair of the State s aging buildings and 
properties, including the capitol complex.
    Considering the Nation's ongoing economic challenges, the 
government should take proactive steps to maximize the value of 
its resources, ensure efficient management, and enable private 
sector economic growth through asset divestiture. Real property 
management is not a partisan issue, nor is it an issue of 
spending priorities; it is an issue of good governance and 
fiscal responsibility.
    In conclusion, I commend the subcommittee for considering 
the need to improve federal real property management. It would 
represent an important step toward bipartisan, responsible 
stewardship of public assets and resources, and improved 
transparency and accountability to taxpayers.
    Thank you again for the opportunity to testify on this 
important subject, and I am happy to take any questions.
    [Prepared statement of Mr. Gilroy follows:]

    [GRAPHIC] [TIFF OMITTED] T9964.023
    
    [GRAPHIC] [TIFF OMITTED] T9964.024
    
    [GRAPHIC] [TIFF OMITTED] T9964.025
    
    [GRAPHIC] [TIFF OMITTED] T9964.026
    
    [GRAPHIC] [TIFF OMITTED] T9964.027
    
    [GRAPHIC] [TIFF OMITTED] T9964.028
    
    [GRAPHIC] [TIFF OMITTED] T9964.029
    
    [GRAPHIC] [TIFF OMITTED] T9964.030
    
    [GRAPHIC] [TIFF OMITTED] T9964.031
    
    Mr. Mica. Well, thank you, and we will go to questions now, 
and we will divide the time up that we have.
    First, let me start with our report author, GAO. One of the 
things that was interesting that you mentioned, I thought, was 
problems of conveyance. I know that there are certain statutory 
requirements that have been set up that are impediments. Have 
you given any thought or is there any recommendation to how 
this should be approached? Because, for example, if we took 
this Department of Agriculture property in the current disposal 
system, it is very difficult.
    We have some acts, too, that have been well-intended 
passed, but also put in impediments to dealing with disposal 
DOD property. I think you have the McKinney Act and some other 
things they have to comply with. Have you given any thought, 
Mr. Wise, are there any recommendations? We have a couple 
pieces of legislation that were crafted that really, I don't 
think, solved the conveyance problems, but would you like to 
comment?
    Mr. Wise. Yes. Thank you for your question, Mr. Chairman. I 
don't think that it is described as an impediment, per se. 
Rather, these are issues that are part of the entire property 
system. Now, we have recommended, as I noted in my statement, 
that it would be, we think, very helpful if OMB would develop a 
national strategy for trying to address federal real property. 
Now, OMB, by itself, cannot overcome all these issues, but, 
nevertheless, they could develop a game plan that would help 
set up a framework so that these can be addressed in some 
manner.
    You have a situation, really, where many conveyances are 
things that are for the public interest as well. You know, you 
could take, for example, a small or medium size city where a 
building, an old courthouse may be located in a downtown 
facility, a downtown area. It is a very valuable piece of 
property; it is something that maybe the city hall is too small 
for the city government and it is quite natural, and I think 
this process is repeated many times around the Country, that a 
city or a State government would then be able to consolidate 
some of its offices and pull back from leased space. In that 
case, it is helpful for the public good.
    Mr. Mica. What I am interested in, and I don't know if you 
or Dr. Robyn can help us, but if you can cite any current 
statutes or impediments to conveyance, maybe supply it in the 
future to the committee, I think that would be helpful.
    I was talking to Mr. Connolly informally and we could look 
at the legislation, some of which I helped craft, that had been 
proposed but not passed, but maybe combining that, looking at 
how we could give you the tools to accomplish the job, and also 
the agencies. We go to agencies; you passed the law, we can't 
do this. But I would be most appreciative if you could identify 
those and then use it in maybe possibly empowering OMB.
    One of the problems we have in looking at properties, and 
here again you have 7,000 acres right up the road, incredibly 
valuable property, 500 buildings. I asked is there a plan, does 
anyone have a plan in the Department of Agriculture for this 
property. No, they didn't. Has anyone looked--well, there are 
impediments, asbestos. Well, lots of old buildings have 
asbestos in them. Maybe they won't be used, like Mr. Connolly 
said, when they get to that condition, they have to be torn 
down. But you still have a valuable real estate asset there, 
and redevelopment and reconstruction is nothing new, even 
within the Capitol Beltway. But we need to be able to make that 
possible.
    I know you are sort of a service agency, too, Dr. Robyn, 
and you are doing the best you can do. I don't know if you know 
this, Mr. Connolly, with all the disruptions we had in GSA, and 
has been the building commissioner since, I guess, September, 
trying to pick up the pieces of an agency that was having 
problems. But I am delighted to hear, incidentally, of the 
online auction. Here is an asset that sat there for 10 years 
and now it has the potential for putting some cash in the 
Treasury or better utilization of that. So I thank you for 
those efforts.
    But, again, I am not sure how we approach this. If we 
require every agency, you can't do this all, but we may need 
some requirement to have a plan to someone to analyze. Now, we 
do have a federal reporting requirement on the property, but we 
see how flawed that is. Here is two properties totally 
dilapidated on the Federal Property Report as in excellent 
condition. So, first, what about the plan, and then maybe, Mr. 
Wise, you could comment about how do you require accurate data.
    Ms. Robyn. Well, let me speak to the disposal issue, 
because I think I am a veteran of a number of BRAC backgrounds, 
both in the Clinton White House and at DOD, and, Congressman 
Connolly, I led the Clinton Administration effort to make base 
reuse more friendly to communities. It was not friendly to 
communities when I came in Congress.
    Mr. Chairman, I don't know what Orlando's experience was 
with McCoy when that was closed in the mid-1970s.
    Mr. Mica. Our big one was the naval training center.
    Ms. Robyn. Okay. All right.
    Mr. Mica. That was political. They had brand new buildings, 
some under construction, I mean, actually under construction, 
and Rostenkowski had more power than McCollum at the time, so 
they had decrepit buildings in the Great Lakes and winter 
conditions, but they got to open and we actually tore down 
brand new or under construction buildings. It was almost 
criminal. And Orlando could sustain the economic impact of 
losing the training center, but it was horrible.
    But the thing here is we have a responsibility government-
wide. We want, for example, the Department of Agriculture, 
somebody should have a plan. But how do you do that? You can't 
do it all. Maybe you can go on and do some spot checking and 
say, hey, we should look at plans or kick them in the butt to 
make them move forward with it, instituting a plan. But to have 
7,000 acres, larger than the size of the city of Key West in my 
State, sit like that, with almost half the buildings decrepit, 
it is mind-boggling.
    Ms. Robyn. I would argue that you need less a plan than a 
process, and that that process is a civilian version of BRAC.
    Mr. Mica. Okay. Well, we did some of that, and I think we 
will look at our bill. I am not sure, though, that we even 
required, you have to have someone first assess what you have 
and then someone make a damn decision as to disposal best 
maximum utilization of the property.
    Mr. Wise, what do you think? Give us your opinion again on 
how you think we should approach this.
    Mr. Wise. Well, just to elaborate a little bit on what Dr. 
Robyn was getting to, the civilian BRAC process, CPRA, the bill 
we actually worked pretty closely with staff to help advise on 
that and comment on it, and there, by bundling properties 
together with a total up and down vote required from the 
Congress I think would have helped at least, if not eliminate 
it, would have helped ease the process of some of the steps 
that right now make it very difficult to dispose of excess 
federal real property. So that is one step.
    Mr. Mica. Would you object to requiring each agency to have 
a true assessment, evaluation plan, and then best utilization?
    Mr. Wise. Well, under the Executive order each agency is 
required to have such a plan, so presumably these are things 
that are being fed into the process.
    Mr. Mica. Maybe it needs to be done by law?
    Mr. Wise. You mean codified?
    Mr. Mica. Yes.
    Mr. Wise. That is really up to the Congress, but I think 
that was one of the bills actually was aimed at doing that. 
There was a different version of that bill that also never was 
enacted that aimed at that as well. But I think there is a 
combination, as you were stating earlier, a combination of both 
legislation, as well as administrative actions, that could help 
harmonize some of these issues and make some progress in 
dealing with the property issues.
    The disposal one can be very tricky because often, as you 
mentioned earlier in your statement, it can be very costly to 
dispose of properties due to the environmental issues. As you 
saw in Beltsville, I went out there also last year and I had an 
offline conversation with one of the engineers who was 
responsible for some of the activities going on there, and he 
had mentioned it had cost him almost $200,000 to knock down one 
of the smaller buildings there because he was dealing with 
three environmental authorities, between Prince George s 
County, the State of Maryland, and the federal; and it is a 
very involved process and very costly process, and that is a 
major challenge.
    Mr. Mica. We need a way to expedite that.
    I am using more of my time, but I am going to give Mr. 
Connolly as much time.
    I just want to say, in conclusion, Mr. Gilroy, thank you, 
and also giving us examples. I will look at those examples. 
Georgia, you probably know Mr. Deal who served here; Mr. 
McDonnell, your governor, was not here; Mary Phalen, Oklahoma; 
former member Kasich from Ohio. I think you cited four States 
that have taken initiatives. We will look at what they have 
done and maybe we can learn from them or even have them in.
    Mr. Connolly, you are recognized.
    Mr. Connolly. Thank you, Mr. Chairman.
    Mr. Gilroy, you said this should not be a partisan issue. I 
agree. My concern, just to interject, and I know the chairman 
shares this, as someone who spent 14 years in local government, 
we don't want to do harm to local communities in our zeal to 
divest ourselves of properties we no longer need or want. We 
want to make sure that whatever action we take is integral with 
the plans of that local community.
    For example, it may be sometimes that there is value in 
parking a piece of property and not developing it, not selling 
it off until something else is triggered in a given local 
community. On the other hand, it may be the opposite; the local 
community may welcome that property being developed to help 
jumpstart, catalyze redevelopment, or whatever it may be. So we 
want to make sure we are in sync and that we are not an 
outlier, because the Federal Government, frankly, is not 
subject to local zoning regulations and laws, and that can 
sometimes be problematic in terms of planning.
    I like to believe that the Lorton property here, the Lorton 
Prison property was actually a model for cooperation between 
the locality and the Federal Government, well, I will come back 
to this.
    Let me ask some questions. Inventory. Do we know, Ms. 
Robyn, how much property we own as the Federal Government?
    Ms. Robyn. I know how much GSA property we own, yes.
    Mr. Connolly. All right, but there are lots of federal 
entities.
    Ms. Robyn. Yes. Yes. We represent 10 percent of federal 
property.
    Mr. Connolly. Who is the coordinating entity, going back to 
the Chairman s question, really, for other entities? Like this 
property is a Department of Agriculture property and this is a 
Department of Interior property. So are you confident that 
those agencies have accurate inventories as well?
    Ms. Robyn. No. No.
    Mr. Connolly. No.
    Ms. Robyn. And GSA does have a role here, another part of 
GSA, the Office of Government-wide Policy oversees the FRPP, 
the inventory, or sets the rules for the inventory.
    Mr. Connolly. For the other agencies. So you play that 
coordinating role.
    Ms. Robyn. Yes. We are still at the stage of crawling, we 
are not walking yet.
    Mr. Connolly. So in the legislation that the chairman was 
talking about, maybe one of the elements we could have is to 
toughen up reporting requirements by the agencies to you, maybe 
even toughen up your coordinating role so we actually at least 
have an accurate picture of what do we own as a Federal 
Government.
    Ms. Robyn. Yes. I mean, I think there are a number of ways 
to go at it.
    Mr. Connolly. Before I get to disposal and utilization, 
when we own property, when do we make the decision and how do 
we make the decision to lease space, rather than go to or 
develop the property we own?
    Ms. Robyn. Well, for GSA tenant agencies, we work with them 
to establish a requirement, and we typically work with them to 
lower their requirement below what they, in terms of space, and 
then figure out is there owned space that would meet that 
requirement, and then we look at leased space as an alternative 
to that. It is not a first choice, but we have increasingly 
relied on leased space because it is often more desirable than 
owned space that we are not keeping up to the level of private 
sector space, commercial space.
    Mr. Connolly. I assume cost is a factor as well.
    Ms. Robyn. In what sense?
    Mr. Connolly. Well, you are taking into account the fact 
that it costs X dollars per square foot to lease a space, 
versus, perhaps, retrofitting or constructing.
    Ms. Robyn. Yes. Yes, in that sense, very much so.
    Mr. Connolly. Plus, there is a location issue.
    Ms. Robyn. Right.
    Mr. Connolly. Okay. Utilization. How do we determine the 
best utilization of a property?
    Ms. Robyn. Well, utilization is a little bit subjective. I 
mean, there are criteria for how much utilization, whether a 
property is utilized, underutilized, not utilized at all. But 
property that is utilized we think can often be better 
utilized. The single most powerful thing that my organization 
is doing now is trying to move our customer agencies to 
collaborative open workspace, much like what the private sector 
is embracing, which allows them to meet their needs with less 
space.
    If you go into a typical federal office building, same is 
true for a commercial space, only a third of the people are 
there at any one time; they are traveling, they are engaging in 
mobile work. We can get by with less space if it is organized 
in the right way. And agencies tend to love it. I am a convert 
to it. I have no office; I have a workstation and four feet 
from my desk is my deputy's workstation.
    Mr. Connolly. Do we have a process regularly for revisiting 
the utilization?
    Ms. Robyn. No. I mean, many agencies reach out to us and 
want to do this, and we have an active process typically, at 
any one time, with any agency number of agencies.
    Mr. Connolly. But it seems to me, if you want an action-
forcing event, it has to be on a schedule. So every five years 
we review your property, or something.
    Ms. Robyn. Well, we are constantly reviewing. We have an 
asset profile for every single property that we have, leased or 
owned, so we are constantly looking at that.
    Mr. Connolly. Well, leases I understand, because that is an 
action-forcing event. But if you own this property----
    Ms. Robyn. Right. No. We are kind of disposal police. We 
love to dispose of property. I don't know why we have not 
reached out to USDA on something like that.
    Mr. Connolly. But again, I think that the criteria and the 
review process, including subjective review, is important. I 
mean, the Secretary of State, William Seward, purchased Alaska. 
It was roundly mocked, roundly disdained. Nobody thought it was 
a smart decision to purchase Alaska from the Russians. In 
hindsight, we are awfully glad Seward's folly took place and 
that we banked this huge piece of land that today, of course, 
is mineral-rich and has lots of other assets to it. So it 
depends on one's perspective. One wants to have some cushion to 
allow one to think longer term than just the immediate value of 
land.
    But, on the other hand, there has to be some process for 
review of what we own. Now, if we had a five-year, let's just 
make it a five-year plan, in this bill we are looking at, Mr. 
Chairman, then there would be an action-forcing event. Justify 
this, please. Justify why you are still banking this land in 
that condition and that you have no plans for it. Because if 
that is the answer, then someone else will have plans for it 
for you. And I guess that is what I am getting at. I think you 
have to have some kind of requirement, federal family, that 
whoever it is who owns land, you have to have a mechanism for 
reviewing it.
    Ms. Robyn. Well, so we have a pretty rigorous process for 
working with agencies to downsize their space requirement. That 
is not GSA property, that is USDA.
    Mr. Connolly. Don't get parochial on me, now.
    Ms. Robyn. Okay.
    Mr. Connolly. I am sure you are doing a great job, but we 
look at the whole federal government.
    Ms. Robyn. Yes, the Federal Government.
    Mr. Connolly. And that is why I asked do you have a 
coordinating role that could be beefed up to force agencies to 
have to tell you what their plans are.
    Ms. Robyn. Yes. I start to sound like a broken record on 
this subject, but when I was at DOD and again in my current 
role, I am part of the Federal Real Property Council, the real 
property officers of the largest landholding agencies, and we 
are the ones who develop the civilian BRAC legislation. Senior 
people in federal agencies realize they need to get rid of 
property, but they are also looking at impediments, including a 
lot of stakeholder interest.
    Just to take USDA, this is a USDA property, they have 
properties all over the Country because at one time, by 
statute, you had to be able to reach a USDA property on 
horseback within a day. Now farmers sit on million dollar 
combines and communicate on their laptop. But there is an 
enormous amount of USDA property that it is not underutilized, 
but it is like post office property; one has to rethink do we 
really need this many facilities.
    And the key to that, I think, is a process for insulating 
you all from the political difficulty of doing that on a very 
broad scale. I don't know how else to do it on a broad scale. I 
think there is the will among senior people in these agencies 
to do it, but they need help doing it.
    Mr. Connolly. Yes. My own experience with BRAC, which is 
extensive, it is good that we have an action-forcing event that 
is very difficult to amend, it is up or down. There is some 
good in that. But that doesn't guaranty wise decisions, and the 
last BRAC round made some very unwise decisions, depending on 
one's point of view, about transit and about land use and the 
like. So, yes, we want to force action, but we want to make 
sure those are wise actions.
    Ms. Robyn. I won't disagree with your statement.
    Mr. Connolly. I have other questions, as well, but my time 
is up, and I want to give Ms. Norton an opportunity. I think 
the votes have been called, haven't they?
    Mr. Mica. Yes, I think they are going back in, but thank 
you, Mr. Connolly.
    Also, too, we will be submitting and will leave the record 
open for a period of three weeks to submit additional 
questions. Without objection, so ordered.
    By previous unanimous consent request, which was granted, 
recognize the gentlelady from the District, Ms. Norton, for 
five minutes. Welcome, and you are recognized.
    Ms. Norton. Well, thank you, Mr. Chairman. I am on the full 
committee, I am not on this particular subcommittee, but under 
Chairman Mica, actually, on another committee, we gave a lot of 
attention to this issue. Therefore, it is very frustrating to 
hear the piecemeal approach.
    Mr. Mica. Would the gentlelady yield? Now, you weren't here 
when Dr. Robyn spoke.
    Ms. Norton. No.
    Mr. Mica. But we did the hearing at the power plant.
    Ms. Norton. At the power plant?
    Mr. Mica. Vacant for a decade, I think. And she told me 
that the current bids on the online auction are up to $16.1 
million.
    Ms. Norton. That's the word I have, too.
    Mr. Mica. Well, just thank you for yielding, but I didn't 
know if you had heard that.
    Ms. Norton. Thank you. Yes, indeed. It looks like even 
without a process, as you call it, the Administration, at least 
the GSA, with property it controls, has gone ahead, and I 
salute you for that.
    But the reason I was interested is because I was the 
ranking member when we had this discussion in the 
Transportation Committee and I sat through similar hearings in 
this committee and two versions of civilian BRAC went to the 
floor and were passed. I think we would have benefitted if, in 
the process of considering our bills, we had collaborated with 
the Senate, because the Senate Homeland Security Committee, it 
seems to me, is pretty close to us, particularly to the bill 
that came out of this committee, and I think that could have 
happened if that collaboration had gone on.
    So when I hear this talk about data or see these 
properties, it seems to me that these annual reports on federal 
property management issues will remain exactly as they are and 
have been as long as nobody is in charge. And the central 
problem is as they are and as they have been as long as nobody 
is in charge. And the essential problem is unless you want to 
keep going agency-by-agency or making you all kick up dust 
trying to deal agency-by-agency, as if they had some call on 
federal property, it is not their property; it happens to be 
property in their name that they were using for specific 
purposes. Until we get an umbrella under which to do this, we 
are not going to get anywhere.
    Would everybody at the table agree that some sort of 
umbrella unit, you can call it civilian BRAC. That is not what 
this committee called it, it simply had the GSA and OMB get to 
together and to figure it out, but they had the power to do it. 
Would everyone agree that Congress needs to put in place some 
umbrella unit that would have the statutory authority to get 
the data and to do the other tasks that you are now doing piece 
by piece, trying to extract agency-by-agency? Would that be 
useful and beneficial to deal with these annual property 
management problems?
    Ms. Robyn. Yes, I very much would applaud that. One still 
needs an inventory, a better inventory than we have, and an 
ongoing process.
    Ms. Norton. I am saying that you are not going to get an 
inventory, you are not going to get anything until somebody can 
say here is a system, this is how we count. So the way you are 
doing inventory now, you are going to be doing inventory for a 
long time. People know how to count, but they will count 
differently unless there is a unit that says this is how we 
want you to count, this is the date by which we want it. So I 
am taking all of that and putting it under one umbrella; data, 
all of the piecemeal information that you are gathering, which 
I regard as just make work. And I don't know how one can 
continue it.
    We had the Administration and two committees of the House 
on the same page on some kind of unit. Somebody needed, perhaps 
the Administration, to take more leadership, since the House 
Homeland Security Committee was not that far from us. We could 
have a bill out of here. The discussion I have sat in on is 
very frustrating because that is not going to get us anywhere, 
and you all know it. And to task GAO, year after year, to doing 
this, when there are already solutions, this is not a problem 
that hasn't found a solution; it is a problem where we have 
failed to act on a solution where we were close to, in fact, 
getting a solution.
    Somebody has to move off their duff and get us moving on 
these bills and get the Administration to say, look, you are 
close together, let's get together and let's negotiate these 
out and get the job done. Because I find this just boring every 
year to go through the same telltale, when everybody knows what 
to do, and subjecting you, the GSA, to criticism, and then you 
come back and say, okay, but we only own 10 percent of the 
buildings.
    You are a peer agency. There is not a damn thing you can do 
when you go to the Department of Energy and say we want your 
things. You just can't get it. You can't do it from the 
Department of Agriculture; it is ten times bigger than you are. 
You ought to say that. That is how action is forced.
    Mr. Wise, are you from the GAO?
    Mr. Wise. Yes, I am.
    Ms. Norton. Well, why don't you call the question on this? 
I looked at your report. The report is very informative, but 
why doesn't your report take account of the fact that two bills 
were passed by this House, and that the Senate got close to it 
and recommend that the House proceed to see what it can do 
along lines? It wouldn't be controversial for you to say, since 
you already have agreement from the Administration and the 
House, at least, with the Senate not that closed off, instead 
of just going along with the same questions that you asked 
before the 112th Congress, when we had gotten that far. We need 
a push from someone that says you have the solution right there 
before you, go at it.
    Mr. Wise. Yes. Well, if I may, you may remember a couple 
years ago there was a hearing in the very cold Old Post Office 
Annex. I don't think you ever took of your gloves. I know I 
didn't. But, anyway, at that hearing we had commented that we 
thought CPRA was a step in the right direction in terms of 
trying to rationalize the federal property system. What I think 
you are actually asking is what other steps can Congress take 
to really help real property form methods.
    Well, in fact, we don't think it is absolutely necessary 
there be additional legislation. Rather, I think the two 
recommendations that we have from our June report, I think, 
lend themselves, if implemented fully, to really making big 
strides forward.
    Number one is encouraging OMB implement our recommendation 
for developing a national strategy and also making the Federal 
Real Property Profile more transparent and open to other 
agencies, who then can access it and see what is going on among 
each other. Right now they keep a very close hold on it.
    Ms. Norton. Good luck, Mr. Wise.
    Mr. Wise. Okay. That is one.
    Ms. Norton. Good luck with that approach.
    Mr. Wise. Okay, number two is, again, working with the 
General Services Administration to make these improvements that 
they have said they are planning to make to the Federal Real 
Property Profile, getting everybody on the same page and 
helping to get the agencies to report things in a uniform way, 
because without proper data collection methods, you are going 
to continue to have a mishmash of data in the profile.
    Ms. Norton. Mr. Wise, I thank you for that. Good luck to 
the GSA if they can make the agencies do that. OMB would have a 
hard time doing it. All I am saying is that I think your report 
would have been far more useful to us if you had picked up 
where we left off, seeing that we have such substantial 
agreement in the Congress, instead of going back to the same 
kinds of approaches that, frankly, have not proved very useful.
    GSA has tried to do what you are talking about and GSA 
simply is no match for these larger agencies. I don't think it 
gets us anywhere to leave on the table when Congress is close 
to agreement for some kind of unit to help us get to the bottom 
of this. And if I may link this to another part of your report 
which talks about costly leasing, I couldn't agree with you 
more.
    Now, Dr. Robyn has now 412 authority, authority to use 
ground leases, leaseback in order to do something about this 
property. So you can talk about leasing all you want to, but 
the fact is that if GSA isn't pushed to use this authority--we 
gave GSA this authority at least six or seven years ago. Only 
this year are we seeing any movement toward using this 
authority, which would mean you could act in the way that 
people in the real estate business act in order to build.
    So I don't see how you can talk about costly leasing 
without implicating GSA's unused or virtually unused authority 
to do something about it. GSA sees a property, and you, quite 
correctly, say the government often leases space from private 
landlords in the same real estate market where it owns 
underutilized real property without indicating that there is 
authority in the GSA to take that real property and use that 
extraordinary authority that Congress gave it. So that is my 
criticism with you, Mr. Wise.
    But my criticism of Dr. Robyn would be where in the world 
is the 412 authority on this leasing? If you have underutilized 
property in a city or a county, why aren't you using leaseback 
or ground lease or some of your flexible 412 authority to save 
the government money?
    Ms. Robyn. I think, in a word, scoring, scoring issues.
    Ms. Norton. I thought the whole point of the 412 authority 
was to take you out of the scoring problem.
    Ms. Robyn. No. Legislation does not--you can't legislate 
around scoring issues.
    Now, 412 authority provides for exchanges, and we think 
that that is what we think will work for the FBI headquarters 
in exchange of J. Edgar Hoover for construction services 
somewhere in the National Capital Region. We think that will 
work for the Federal Triangle South, although we are open to a 
variety of alternatives. If we have innovative financing 
authority that we are not using, you can be pretty sure that it 
is because we have tried and failed to get around scoring 
issues.
    Ms. Norton. Mr. Chairman, I thank you.
    Mr. Mica. Thank you for participating and for your interest 
and questions, and you raised some issues that we need to 
pursue. This, of course, is the first subcommittee hearing, and 
we are focused, of course, on the high risk series, 
particularly federal real estate. We have opened a whole host 
of areas that we need to pursue.
    Mr. Connolly and I have been in brief discussion. We are 
going to look at some of the legislation that I helped craft 
and he is interested in, see what we can do to enhance that 
language. We would appreciate from you your recommendations, 
anything statutorily, any empowering OMB or GSA that is needed. 
Ms. Norton raised the question that some authority has been 
given, but nothing done. We probably need triggers to make that 
happen. And then Mr. Connolly has also cited the sensitivity, 
when we dispose of or deal with these federal properties, to 
where they exist, and the local and State interests that are 
involved and recognizing them, so a host of issues.
    But they have called votes, so I think we already got 
unanimous consent that we would leave the record open. We will 
have additional questions to submit to you.
    Ms. Norton. Mr. Chairman, could I just say one thing? Dr. 
Robyn indicated that she wasn't using this flexible authority 
because of scoring. She is not talking about CBO scoring. The 
Administration internally could deal with that scoring from 
OMB. So I just want to put it on the record. When we hear 
scoring, everybody up here thinks you mean CBO, and that is not 
what you mean. You mean your own scoring.
    Ms. Robyn. OMB and CBO tend to be in lockstep on scoring 
issues. There are cases where it is a CBO call; there are cases 
where it is an OMB call. And I am not criticizing it.
    Mr. Mica. Well, when that issue was brought up, in fact, 
Mr. Connolly and I did have a brief discussion. We need to look 
at that and, actually, our committee has jurisdiction. So if 
there is some question or problem or lack of proper 
interpretation of scoring, then we need to make certain that it 
is defined so that we can get the job done. So that is part of 
our responsibility and, fortunately, it falls within the 
jurisdiction of our committee. So we will be working on that.
    Mr. Connolly?
    Mr. Connolly. Mr. Chairman, I just want to thank you. This 
is our first hearing of this new subcommittee, and I think you 
have set a tone of collaboration, cooperation, and 
bipartisanship. I and my staff look forward to working with you 
and your staff. I think we are going to make some music 
together. Thank you so much.
    Mr. Mica. Well, thank you. We will follow up together. This 
is, again, just a small focus on the issue of, again, federal 
real property for the tenth year appearing on the high risk 
report of GAO. We need to not just talk about it, do something 
about it, and we are both committed to that. I thank Mr. 
Connolly.
    I thank our witnesses also for being with us and the staff 
on both sides of the aisle for their work.
    There being no further business before this Subcommittee on 
Government Operations, this hearing is adjourned. Thank you.
    [Whereupon, at 3:20 p.m., the subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T9964.032
    
    [GRAPHIC] [TIFF OMITTED] T9964.033
    
    [GRAPHIC] [TIFF OMITTED] T9964.034
    
    [GRAPHIC] [TIFF OMITTED] T9964.035
    
    [GRAPHIC] [TIFF OMITTED] T9964.036
    
    [GRAPHIC] [TIFF OMITTED] T9964.037
    
    [GRAPHIC] [TIFF OMITTED] T9964.038
    
    [GRAPHIC] [TIFF OMITTED] T9964.039
    
    [GRAPHIC] [TIFF OMITTED] T9964.040
    
    [GRAPHIC] [TIFF OMITTED] T9964.041
    
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
